IN THE SUPREME COURT OF THE UNITED STATES

ROBERTO YOQUIGUA LOPEZ,
Petitioner, '

ยฅ.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioner,
Roberto Lopez, asks for leave to file a Petition for a Writ of Certiorari to the U.S.
Court of Appeals for the Ninth Circuit without pre-payment of fees or costs and to
proceed in forma pauperis. The Petitioner was represented by counsel appointed
pursuant to 18 U.S.C. ยง 3006A in the district court and on appeal to the Court of
Appeals for the Ninth Circuit.

Respectfully submitted,

October 30, 2020

 

P.O. Box 141

Cardiff, CA 92007
Telephone: (858) 215-3520
Counsel for Mr. Lopez

ll
